       Audit of USAID’s Actions to Correct
Financial Management System Planning Deficiencies



            Audit Report No. A-000-00-003-P
                    August 24, 2000




                      IG/A/ITSA
                                                                                              August 24, 2000


MEMORANDUM FOR AA/M, Peter Benedict, Acting Chief Information Officer
               M/FM, Michael Smokovich, Chief Financial Officer

FROM:              IG/A/ITSA, Theodore P. Alves

SUBJECT:           Audit of USAID’s Actions to Correct Financial Management System
                   Planning Deficiencies (Audit Report No. A-000-00-003-P)


The Federal Financial Management Improvement Act of 1996 (PL 104-208) requires
Agencies to determine whether its financial management system meets Federal
requirements that are designed to ensure that managers receive reliable information to
report financial and performance results and to manage agency operations. 1 In December
1997, the Administrator determined that U.S. Agency for International Development’s
(USAID) systems did not meet those federal requirements and in December 1998
prepared a remediation plan to correct system deficiencies.

In March 1999 2 , we reviewed USAID’s remediation plan and reported that the plan was
inadequate. We also reported that USAID lacked an agency-wide information
technology target architecture, a financial management system portfolio that met Office
of Management and Budget’s (OMB) guidelines for selecting information technology
investments, a modular acquisition strategy, and a program management office to oversee
the development of an integrated financial management system.

This report shows that USAID has made progress in correcting the above five financial
management system planning deficiencies. However, only two of the five deficiencies
     1
       OMB Circular A-127 and the Chief Financial Officers Act call for agencies to implement a single
integrated financial management system, which is a unified set of financial systems and the financial portions
of mixed systems (those systems that support both financial and non-financial activities). Working together
using standardized information and electronic data exchange, these systems provide the information managers
need to (1) carry out their fiduciary responsibilities; (2) deter fraud, waste, and abuse; and (3) relate financial
consequences to program performance. Thus, in addition to basic accounting functions, a single integrated
financial management system includes financial and performance data from supporting systems that perform
performance measurement, budget, procurement, payroll, human resource, and other functions. Because
USAID has not implemented a single integrated financial management system, this report refers to USAID's
financial management systems.
     2
       Audit of USAID’s Progress Implementing a Financial Management System That Meets Federal
Financial Management Improvement Act Requirements, Audit Report No. A-000-99-003-P dated March 1,
1999.
have been fully corrected. The remaining three deficiencies have been partially, but not
fully corrected by USAID management.

The audit report contains three recommendations, which call for USAID management to
(1) develop and implement a process for selecting information technology investments in
accordance with OMB and General Accounting Office (GAO) guidelines, (2) revise the
USAID’s financial management system remediation plan, and (3) strengthen the
authority of the Office of Financial Systems Integration.

Responding to a draft of this report, the Acting AA/M stated that USAID management
generally accepts the findings and recommendations regarding the need to implement a
process to select financial management system investments (Recommendation No. 1),
and to revise the financial management system remediation plan (Recommendation No.
2). Although the AA/M did not agree with the third recommendation as it was worded in
the draft report, he did agree to clarify and strengthen the responsibility and authority of
the Office of Financial Systems Integration (Recommendation No. 3). The response, in
fact, identified eight specific oversight activities that would be assigned to the Office of
Financial Systems Integration. The AA/M also stated that management would continue
working to clarify the Office’s responsibilities and welcomed a continuing discussion
with the OIG.

We believe these comments are generally responsive to the findings contained in the
report and that management has made a management decision to implement
Recommendation Nos. 1 and 2. In response to management’s comments on
Recommendation No. 3, we revised the recommendation to provide additional flexibility
in assigning responsibility and authority. We look forward to further discussions towards
reaching a management decision on Recommendation No. 3.

USAID’s complete comments to our draft report have been included as Appendix II.

Thank you for the cooperation and assistance extended to our auditors during this
assignment.




                                             2
Background

The Federal Financial Management Improvement Act of 1996 (FFMIA) requires
agencies to implement and maintain financial management systems that comply
substantially with federal financial management system requirements, applicable federal
accounting standards, and requirements to post transactions to the United States Standard
General Ledger (SGL) 3 at the transaction level. Incorporating these capabilities will help
USAID ensure that all assets, liabilities, revenues, expenditures and the full cost of
programs and activities are consistently and accurately recorded, monitored, and
reported.

The Act also requires financial statement audit reports to address whether the financial
management system complies with these system and accounting requirements. In our
March 2, 1997 report on USAID's financial statements, we reported that the system did
not substantially comply. 4 As required by the Act, our report described the nature and
extent of noncompliance; the cause of noncompliance; and the organization responsible.

The Act further requires the USAID Administrator to consider the audit report and other
information and make a determination as to whether USAID's financial management
system substantially complies with the requirements. If the system does not substantially
comply with the requirements, USAID must prepare a remediation plan that includes the
resources, remedies, and intermediate target dates needed to bring the system into
substantial compliance. In that case, the Act requires the Inspector General to report to
the Congress if USAID does not meet the intermediate milestones identified in the plan.

In a December 1998 financial management system status report to the OMB, USAID's
Chief Financial Officer (CFO) reported that USAID's systems did not substantially
comply with FFMIA's requirements, and presented a remediation plan to correct the
problems. In a March 1999 report on USAID’s progress in implementing an FFMIA-
compliant financial management system5 , we reported that USAID’s remediation plan
was not adequate and recommended that USAID revise the plan. We also reported that
USAID’s progress had been limited by planning and organizational challenges which
threatened its efforts to successfully modernize its systems and made recommendations
for USAID to (i) complete an agency-wide information technology target architecture,
(ii) use the target architecture to define USAID’s financial management system portfolio,
(iii) complete a modular acquisition strategy, (iv) revise and update its financial
management system remediation plan, and (v) establish a strong program management
office to guide system modernization efforts.


     3
        The SGL provides a standard chart of accounts and standardized transactions that agencies use to
record accounting transactions and events consistently across the federal government.
      4
        Reports on USAID’s Consolidated Financial Statements, Internal Controls, and Compliance for
Fiscal Years 1997 and 1996, Audit Report No. 0-000-98-001-F, dated March 2, 1997.
      5
        Audit of USAID’s Progress Implementing a Financial Management System That Meets Federal
Financial Management Improvement Act Requirements, Audit Report No. A-000-99-003-P dated March 1,
1999.


                                                   3
Audit Objective

This audit was designed to answer the following question:

n        Has USAID corrected the five planning deficiencies identified in the Audit of
         USAID’s Progress Implementing a Financial Management System That
         Meets Federal Financial Management Improvement Act Requirements 6 ?

To answer this question, we analyzed actions taken by USAID to correct weaknesses that
we reported in a March 1999 report on USAID’s progress in implementing an FFMIA-
compliant system. A full description of our scope and methodology is contained in
Appendix I. This audit was included in our annual audit plan.


Summary of Results

USAID has made progress in correcting the five financial management system planning
deficiencies identified in the Audit of USAID’s Progress Implementing a Financial
Management System That Meets Federal Financial Management Improvement Act
Requirements, but only two of the five deficiencies have been fully corrected. The
remaining three deficiencies have been partially, but not fully corrected by USAID
management.

The five planning deficiencies that were identified in the FFMIA audit report included
the following:

         (1)   the lack of an agency-wide information technology target architecture,
         (2)   the lack of a financial management system portfolio that met OMB’s
               guidelines for selecting information technology investments,
         (3)   the lack of a modular acquisition strategy,
         (4)   an inadequate financial management system remediation plan, and
         (5)   the lack of a program management office to oversee the development of an
               integrated financial management system.

Since we reported the above deficiencies, USAID has developed an agency-wide
information technology target architecture, a financial management system portfolio, a
modular acquisition strategy, and a financial management system remediation plan. It
also established a program management office to oversee the development of an
integrated financial management system.

However, we found that USAID’s financial management system portfolio was not
developed in accordance with OMB guidelines, and that the remediation plan was not

    6
        Audit Report No. A-000-99-003-P dated March 1, 1999.


                                                  4
adequate. In addition, we found that the lines of authority for the program management
office need to be clarified. Regarding the remediation plan, we were unable to assess the
reliability and reasonableness of target dates that had been established because USAID
management excluded us from its review and analysis of a detailed plan. USAID
determined that the review of the plan, which was delayed, would proceed without OIG
participation. Therefore, the OIG was prevented from doing the tests necessary to render
a professional opinion on USAID’s schedule of milestones that outlined how USAID
planned to install a core accounting system in Washington and at two overseas offices by
March 31, 2001.

A more detailed explanation of each of the five planning deficiencies and the actions
USAID has taken to correct them is discussed below.

       USAID Has Made Progress in Developing
       an Information Technology Target Architecture

In our March 1999 FFMIA audit report, we reported that USAID had not developed an
information technology architecture that met OMB requirements and that USAID was
planning to award a contract for a new core accounting system without having completed
such an architecture. An architecture is essential to the success of creating a complex
information system because it provides the blueprint for how related agency systems will
be acquired and work together to achieve strategic mission goals and to satisfy business
requirements.

OMB’s Memorandum 97-16 provides guidance on minimum requirements for an
information technology architecture. The requirements include the need to develop (i) an
enterprise architecture, and (ii) a technical reference model and a standards profile. An
enterprise architecture describes the relationships among agency business processes, and
a technical reference model describes information services (i.e., database standards,
communications functions, and system security requirements) that are used throughout
the Agency.

Since our report, USAID has made progress in developing an Agency-wide information
technology target architecture. To illustrate, USAID developed such an architecture that
contained all elements identified in OMB’s guidelines at a sufficient level of detail to
proceed with the award of a contract for a new core accounting system. For example, it:

•   Developed and finalized three reports describing USAID’s options for an enterprise-
    wide target architecture. The reports described the: (1) functional characteristics and
    capabilities of USAID’s January 2000 information technology architecture; (2)
    current information system architecture and identified agency goals for changes to
    information systems; and (3) high level functional, data, performance, security, and
    operational system requirements.

•   Drafted a preliminary technical reference model that identifies USAID’s standards
    and profiles to insure interoperability in its information technology systems.


                                            5
Based on our review of USAID’s information technology target architecture, USAID has
made significant progress in developing a target architecture that meets OMB’s
requirements for having an enterprise architecture and a technical reference model and a
standard profile. Accordingly, USAID has addressed the architectural deficiency
identified in our March 1999 FFMIA report. However, USAID needs to continue to
develop and complete the target architecture at a sufficient level of detail that meets
OMB’s requirements.

       USAID Has Not Developed a Portfolio
       of Financial Management System Investments
       in Accordance With OMB Guidelines

In March 1999, we reported that USAID had not developed a prioritized list (referred to
as a portfolio) of financial management system investments in accordance with OMB’s
guidelines for selecting investments for funding. These guidelines call on agencies to
prioritize their planned investments by reviewing projects for relevance and feasibility;
analyzing risks, benefits, and costs; prioritizing projects based on expected return-on-
investment; and then determining the right mix of projects to fund. Since our report was
issued USAID developed a prioritized list of financial management system investments,
but it did not develop its list in accordance with OMB’s guidelines. That is, contrary to
OMB’s guidelines, USAID did not complete the necessary analysis of project benefits,
costs, and risks to (1) prioritize its projects based on expected return-on-investment, and
(2) properly determine which projects should be funded. USAID had not followed OMB
guidelines because it has not fully implemented a process for selecting information
technology investments.

Per the Joint Financial Management Improvement Program, the following diagram
represents the components of an integrated financial management system investment
portfolio.




                                             6
OMB’s Evaluating Information Technology Investments: A Practical Guide provides
guidance for selecting information technology investments and calls for agencies to
follow the following four-step process:

       (1)   screen proposals for relevance and feasibility,

       (2)   perform detailed evaluations of each proposal’s supporting analyses,

       (3)   rigorously compare projects against one ano ther to create a prioritized list of
             all investments under consideration, and then

       (4)   decide the right mix of projects to fund considering budget constraints, risk
             level, expected impact, etc.

In evaluating and selecting capital assets using an investment approach, GAO’s Leading
Practices in Capital Decision Making states that best practices call for (1) establishing a
review and approval framework supported by analyses, and (2) ranking and selecting
projects based on established criteria. It also states that the establishment of a decision-
making framework that encourages the appropriate levels of management review and
approval, supported by the proper financial, technical, and risk analyses, is a critical
factor in making sound capital investment decisions.

Although OMB and GAO call for using a disciplined approach, including analyzing
costs, benefits, technical feasibility, and risks, to select capital investment projects for
funding, USAID did not do so. Instead, USAID’s CFO developed a portfolio of financial
management system investments by relying on the subjective opinions of responsible
managers instead of conducting analyses of costs, benefits, technical feasibility, and
risks. That is, USAID’s analysis was limited to conducting interviews of Agency
managers to obtain their opinions regarding the (i) criticality, (ii) current adequacy, and
(iii) replacement urgency of USAID’s current systems. Using the results of these
interviews, USAID developed a prioritized ranking of the order in which USAID’s
systems should be replaced. It then decided which system projects to fund in its fiscal
year 2001 budget submission. Thus, USAID significantly strayed from OMB’s
guidelines by not following OMB’s four-step process to (1) screen proposals, (2) perform
detailed evaluations of supporting analyses, (3) rigorously compare projects against one
another to create a prioritized list of investments, and (4) decide the right mix of projects
to fund.

To point out the impact of using a subjective method as a means to prioritize investments,
we noted that USAID’s Capital Investment Review Board (CIRB), which is chaired by
the Chief Information Officer (CIO) and responsible for selecting and prioritizing
investments in information technology, had also prepared a prioritized list of investments
using interviews. Because both the CFO and CIRB’s rankings were developed through
subjective interviews instead of through sound analysis, and because two different sets of
decision-making criteria were used, the CFO and the CIRB defined the financial




                                              7
management system components differently and reached different conclusions about
system priorities. The following table shows the two lists:


 Rank                 CFO’s Ranking                             CIRB’s Ranking
   1.     Core Accounting System Replacement           Financial Management
   2.     Procurement System Replacement               Procurement
   3.     Performance Data Collection System           Budget
   4.     Managerial Cost Accounting                   Human Resources (HR)
          Cross-Servicing HR & Payroll                 Operations (Performance System)
   5.
          Processing


Although the CFO and CIRB ranked USAID’s financial management and procurement
systems numbers one and two in priority, they ranked priority numbers three through five
differently. That is, the CFO ranked performance data collection system as number three,
managerial cost accounting as number four, and Human Resources/Payroll as number
five while the CIRB ranked Human Resources as number four, performance data
collection/operations as number five, and did not specifically rank or address a
managerial cost accounting system. Because of the inconsistency in the rankings and
because sound analysis was not used to develop the rankings, USAID is at risk of
allocating resources for projects that do not represent the highest return-on-investment for
USAID.

USAID did not prepare a prioritized list of investments in accordance with OMB and
GAO guidelines because it has not implemented a capital planning investment selection
process with sufficient management controls. The Clinger-Cohen Act makes the CIO
responsible for developing a selection process and for ensuring that the process is
implemented. In part, because it lacks such a process, USAID officials have also
misinterpreted OMB and GAO’s guidelines.

USAID has developed an outline of its capital planning process, but the outline does not
include steps for prioritizing investments. Instead, the outline focuses on preparing
detailed analyses to support and justify decisions to acquire individual projects. The
outline has also not been implemented in the form of policies and procedures that explain
what types of analysis are required, what organizations are responsible for various tasks,
and what decision-making criteria should be used to make the prioritization decisions.

When we discussed this issue with responsible officials, they agreed that USAID had not
prioritized its investments in accordance with OMB and GAO guidelines. They stated
that they prioritized the investments based on management interviews because USAID
did not have the resources to perform the detailed analyses for all planned projects. They
also stated that performing detailed cost/benefit, risk, and return-on-investment analyses
for all planned projects would have delayed USAID’s ability to begin correcting the


                                             8
existing financial management deficiencies. Consequently, they stated that USAID’s
approach has been to prioritize the investments based on management’s judgement and
then to perform the detailed analyses before seeking CIRB approval to acquire individual
systems. This approach is consistent with USAID’s capital investment process outline,
but does not meet OMB and GAO guidelines calling for agencies to prioritize
investments based on analyses of costs, technical feasibility, benefits, and risks.

In addition, USAID managers’ conclusion that USAID lacks the resources to complete
detailed analyses of all planned investments may be due to a misinterpretation of the level
of detail required by OMB and GAO guidelines. Although OMB and GAO’s guidelines
call for using a disciplined and structured approach to prioritize investments, the
guidelines also recognize that the amount of documentation and depth of analysis will
vary depending on the type of project and its acquisition phase. For example, less
detailed analyses would be required for projects in the early planning stages than for
projects that are ready for implementation. Thus, investment analysis is an iterative
process that provides more precise information to decision-makers as the project matures.
Although OMB recognizes that less information is needed early in a project life cycle,
both OMB and GAO also recognize that some level of quantitative analyses of costs,
benefits, risks, and expected return-on-investment are necessary to prioritize projects and
establish a sound investment portfolio.

Because USAID has not analyzed costs, benefits, and risks associated with its planned
financial management system investments, USAID is not in compliance with OMB’s
guidelines and is at risk of allocating resources for projects that do not represent the
highest return-on-investment for USAID. To address this deficiency, we recommend the
following:

       Recommendation No. 1: We recommend that the Chief Information Officer,
       in conjunction with the Capital Investment Review Board and the Chief
       Financial Officer:

       1.1    develop and implement a process for selecting information technology
              investments that meets the requirements of OMB’s Guidelines for
              Selecting Information Technology Investments and GAO’s Executive
              Guide: Leading Practices in Capital Decision Making; and

       1.2    apply the process to prioritize USAID’s financial management system
              investments as part of a portfolio of planned information technology
              investments for USAID’s Fiscal Year 2002 budget submission to OMB.




                                            9
       USAID Has Developed a
       Modular Acquisition Strategy,
       But It May Need to be Revised

In March 1999 we reported that, contrary to OMB’s guidelines requiring a
comprehensive approach for selecting information technology investments, USAID had
not developed a modular acquisition strategy to implement an integrated financial
management system. Since our report was issued, USAID has developed a
Modernization Plan, which represents a high-level, modular acquisition strategy for
implementing an integrated financial management system. However, the Plan may need
to be revised after USAID develops and implements a process for selecting information
technology investments in accordance with OMB’s guidelines (see Recommendation No.
1).

USAID’s Modernization Plan includes the CFO’s vision for an integrated financial
management system and describes USAID’s approach to acquire and implement a
modern integrated financial management system over a five-year period. The Plan also
includes a discussion of the capability shortfalls of USAID’s current systems and a plan
to rectify those system deficiencies. In addition, the Plan also includes performance
goals and objectives and classifies investment projects under one of the following three
initiatives:

       •   Initiative 1: Financial Management Systems (including accounting and
           procurement),

       •   Initiative 2: Performance Management Systems (including budget
           formulation, managerial cost accounting, results tracking, and an Executive
           Information System), and

       •   Initiative 3: Resource Management Systems (including human resources,
           payroll, property management, and travel management).

By breaking down USAID’s planned financial management system into individual
projects and then grouping the projects into separate initiatives, the Plan identifies a
comprehensive, high-level modular acquisition strategy for implementing a new financial
management system.

Although the Modernization Plan presents a modular approach, the Plan may need to be
revised after USAID develops and implements a process for selecting information
technology investments in accordance with OMB’s guidelines (see Recommendation
No. 1). Because a modular acquisition strategy needs to flow from an agency’s
investment portfolio (i.e., its listing of proposed capital investments), once USAID
properly defines a financial management system portfolio and determines in which order
individual projects should be undertaken, USAID may need to revise its current
acquisition strategy to reflect a revised project implementation order.


                                           10
       USAID’s Remediation Plan Has Improved,
       But Its Resources, Remedies, and
       Target Dates Still Need to be Defined

In March 1999, we reported that USAID had not developed an adequate FFMIA
remediation plan because USAID’s plan (i) focused almost exclusively on accounting
systems controlled by USAID’s Financial Management Division, and (ii) did not describe
all significant current or planned financial management systems. We also reported that
the plan did not adequately describe the projects needed to meet federal requirements or
the remedies, resources, and intermediate target dates needed to implement the plan as
called for by the FFMIA. Since our report was issued, USAID has revised its FFMIA
remediation plan. Although the revised plan represents a significant improvement over
last year’s plan, it still does not fully meet OMB’s requirements for a remediation plan.

According to USAID officials, USAID’s financial management systems’ remediation
plan includes the CFO’s Five-Year Plan, a Modernization Plan, and USAID’s Circular A-
11 Budget Schedules. Together, these documents represent a much improved version of
the remediation plan that we reviewed last year because this year’s plan is more detailed
and addresses all of USAID’s financial management systems. Despite the above
improvement, the remediation plan still does not meet the requirements of the FFMIA
because the plan does not identify the resources, remedies, and target dates needed to
fully implement the plan.

Regarding the target dates, we were unable to assess the reliability and reasonableness of
target dates that had been established because USAID management determined that the
review of the remediation plan would proceed without OIG participation. Instead, OIG
would be provided the work products from the review. The review entailed an analysis
of a detailed schedule that outlined how USAID planned to install a core accounting
system in Washington and at two overseas offices by March 31, 2001. However, the
review was delayed. The delay, combined with USAID’s decision to exclude the OIG
from the ongoing analysis, prevented us from doing the tests necessary to render a
professional opinion on the reliability and reasonableness of USAID’s schedule of
milestones.

The following sections discuss the weaknesses we identified in the resources, remedies,
and target dates that are included in the remediation plan.

     Resources

In its remediation plan, USAID identified the resources needed to implement a core
accounting system, a procurement system, and to partially implement a human
resources/payroll system. However, USAID did not identify the resources needed to
implement a budget formulation module, a managerial cost accounting system, an
Executive Information System, a Property Management System, and several other
projects listed in the remediation plan. Accordingly, contrary to FFMIA requirements,
USAID has not identified the resources needed to implement the remediation plan as a



                                            11
whole. Further, without resource estimates for each part of the plan and for the plan as a
whole, USAID has not identified the resources needed to complete its remediation plan,
and thus, does not know how much it will cost to implement the plan or whether the costs
will fit within budget constraints.

In regards to the resources that were identified, the Clinger-Cohen Act requires agencies
to provide a means for senior management to obtain timely information regarding the
progress of an investment through a system of cost milestones for measuring progress.
OMB Circular A-11 requires agencies to have cost goals for all proposed and ongoing
acquisitions. It also states that realistic baseline costs should be established before
proceeding to full acquisition and that the establishment and analysis of cost goals should
include a risk assessment that discusses the probability of achieving them. Contrary to
the Clinger-Cohen Act and OMB’s guidelines, at the time of its fiscal year 2001 budget
submission USAID had not established cost goals when it requested full funding for the
following financial system projects:

       Financial Systems Integration (FSI) Project            $8.10 million
       Procurement System Project                             $3.15 million
       Financial Management Systems (FMS) Project             $11.20 million

Without these cost goals, USAID is not managing its capital investments in accordance
with the Clinger-Cohen Act, and there is little assurance that USAID has identified the
resources needed to fully fund the projects listed in its budget submission.

     Remedies

Regarding remedies, the FFMIA requires agency remediation plans to include the
remedies necessary to bring the agency’s financial management systems into substantial
compliance with the FFMIA. According to GAO, remedies mean identifying corrective
actions for all instances of noncompliance.

In its Modernization Plan for Integrated Financial Management Systems, USAID states
that fundamentally, USAID’s accounting and related systems are incapable of meeting
the basic requirements for funds control, accountability, and reporting. It also states that
there are numerous business functions that are not adequately supported in both the
accounting system and other financial and mixed systems including: accounting,
budgeting, acquisition and assistance, operations/program management, human
resources, and property management.

Despite the FFMIA requirement to include remedies in agency remediation plans,
USAID’s remediation plan does not include the remedies needed to bring its financial
management systems into substantial compliance with the FFMIA. Even though
USAID’s remediation plan suggests potential remedies for those systems, the plan does
not identify the corrective actions actually needed to bring the systems into substantial
compliance. For example, the plan identifies USAID’s main business areas and potential
system solutions for those areas including a commercial, off-the-shelf software package



                                             12
to replace the procurement system and the outsourcing of payroll to a commercial or
Federal provider. However, the plan does not identify any actual remedies other than a
commercial, off-the-shelf software package to replace the core accounting system.
Without this key information on needed remedies, it is difficult, if not impossible, to
determine how USAID will bring its systems into compliance with the FFMIA.

      Intermediate Target Dates

In regards to intermediate target dates, USAID has developed target dates to guide the
installation of a commercial software package to replace the current core accounting
system in Washington and at two overseas missions by March 31, 2001 (i.e., Core
Accounting Phase I) and at USAID’s remaining overseas missions by September 30,
2002 (Core Accounting Phase II). However, target dates for USAID’s other financial
management systems have not been established. For example, in its remediation plan,
USAID discusses the need to replace its procurement and budgeting systems, but it does
not set any intermediate target dates to do so. In addition, the remediation plan does not
establish a date for when USAID expects its financial system to be substantially
compliant with the FFMIA. Without reliable intermediate target dates to guide individual
system remediation efforts and without a target date for being FFMIA-compliant, USAID
managers can have little assurance that the remediation plan is achievable and on
schedule. In addition, without these dates the remediation plan does not meet FFMIA
requirements.

Regarding target dates that were established for Core Accounting Phase I, USAID had
developed a detailed schedule of significant milestones, such as planned dates for system
validation testing, interfaces, data migration, and training, and had agreed to provide us
with the results of an internal review and analysis of the milestone schedule. However,
the review was delayed, and USAID management excluded us from its ongoing analysis.
The delay, combined with USAID’s decision to exclude us from the ongoing analysis,
prevented us from doing the tests necessary to render a professional opinion on the
reliability and reasonableness of USAID’s schedule of milestones. Accordingly, we can
not comment on how realistic these Phase I milestones are.

      Summary on Remediation Plan

Overall, although we believe USAID’s current remediation plan is much improved over
its December 1998 plan, the remediation plan still does not identify the resources,
remedies, and target dates needed to fully implement an integrated financial management
system. A responsible official told us that USAID had not established resources,
remedies, and target dates for systems other than core accounting because it did not have
the resources to plan for these systems. Regarding milestones, the official stated that
USAID did not set milestones for events past March 31, 2001 because it did not want to
be held accountable for milestones more than 18 months in the future 7 .


7
 Once established, a baseline goal is used to determine whether an acquisition is meeting congressional
policy to achieve at least 90 percent of cost, schedule, and performance goals.


                                                   13
Although OMB does state that investment projects should be broken into planning
segments, the FFMIA requires agencies to develop a remediation plan that includes the
resources, remedies, and target dates necessary to bring the agencies’ financial
management systems, not just individual planning segments, into substantial compliance
with the FFMIA. In addition, the Clinger-Cohen Act makes the CIO responsible for
developing a process to control information technology investments. Controlling
investments, in turn, requires implementation of a disciplined planning process.

Without having identified the resources, remedies, and target dates needed to implement
USAID’s plan, senior managers, OMB, and the Congress can not have assurance that
USAID will correct its financial management deficiencies on schedule and within costs.
To address this issue, we make the following recommendation:

       Recommendation No. 2: We recommend that the Chief Financial Officer
       revise the financial management systems remediation plan (i.e., the Chief
       Financial Officer’s Five-Year Plan, Modernization Plan, and Office of
       Management and Budget Circular A-11 budget schedules) to include the
       estimated resources, remedies, and intermediate target dates needed to
       implement an integrated financial management system as required by the
       Federal Financial Management Improvement Act of 1996.




                                           14
       Strengthen the Authority
       of the Office Of Financial
       Systems Integration

In March 1999, we reported that USAID had not established a program management
office to manage the development of an integrated financial management system. Since
our report was issued, USAID made significant progress by establishing the Office of
Financial Systems Integration (FSI) and making FSI responsible for providing business
planning, acquisition planning, and systems implementation for an integrated financial
management system. However, we found that FSI has not actually been given the
responsibility and authority to implement financial management system components
other than the core accounting system. As a result, USAID continues to encounter
increased risk that planning deficiencies or systems integration problems could lead to
cost increases, schedule delays, or system performance problems. The continuing
fragmented organization structure may also have prevented USAID management from
correcting the remaining deficiencies cited in this report. The fact that USAID has not
developed an adequate investment portfolio and an adequate remediation plan occurred
because USAID has not completed the required planning activities for system
components other than the core accounting system.

On March 11, 1999, the Assistant Administrator for Management (AA/M) signed an
action memorandum establishing a program management office to implement an
integrated financial system. The intent of the memorandum was to provide a clear and
unambiguous line of authority and accountability for implementing an integrated
financial management system. The memorandum designated a program manager,
reporting to the CFO to lead the office, and specifically assigned the FSI office
responsibility for: requirements management, market research, investment analysis,
acquisition planning and source selection, and monitoring contractor activities.

The FSI office’s responsibilities were further documented in the FSI Project Management
Plan. That Plan called for the FSI office to direct the planning, design, development, and
deployment of the Integrated Financial Management System (IFMS) Program. The
Project Management Plan stated that the IFMS Program includes both financial systems
and mixed systems, including the core accounting, human resources/payroll, and
procurement system projects.

Although the FSI office was assigned responsibility for implementing the IFMS Program,
we found that the office has not actually been given the authority to manage all
components of the IFMS program. That is, the FSI office has been given the authority to
implement the new core accounting system, but not to implement the other system
components that are required to implement an integrated financial management system.
For example, the FSI office was not directly responsible for overseeing USAID’s
Procurement and Human Resource/Payroll projects—projects that are currently being
planned or implemented and are included in USAID’s fiscal year 2001 budget. Instead,
the Office of Procurement was directing the procurement system project, and the Office
of Human Resources was directing the human resources project. These offices, in turn,



                                           15
reported not to the FSI office, but to a Change Management Team, which included the
AA/M, CFO, and CIO.

The following organization charts reflect our understanding of how the FSI office should
have been operating compared to how we found it to be operating.




                                           16
Financial Systems Integration Project Organization
   Per the Action Memorandum and the Office of
Financial Systems Integration Project Management
                        Plan
                                 Assistant
                              Administrator for
                               Management


                               Chief Financial
                                   Officer



                              Program Manager
                              Office of Financial
                             Systems Integration


                                    Other Financial Management System
      Core Accounting
                                     Projects (i.e., Procurement, Human
           Project
                                           Resources/Payroll, etc.)



                             As Implemented
                           Change Management Team
                     Assistant Administrator for Management
                               Chief Financial Officer
                             Chief Information Officer



                                                          Director, Office
        Chief Financial             Director, Office
                                                             of Human
            Officer                 of Procurement
                                                            Resources

       Program Manager                                         Human
                                     Procurement
       Office of Financial                                    Resources
                                        Project
      Systems Integration                                      Project

       Core Accounting
            Project

                                        17
As shown on page 17, although the program office action memorandum and the Project
Management Plan aimed to establish a program management office with clear lines of
authority and responsibility for developing an integrated financial management system,
we found that the FSI office lacked the necessary authority to oversee the planning and
implementation of critical components of an integrated system.

The need for a strong, unified program management office and the application of
disciplined practices to implement complex systems at USAID have been noted by
several groups including the USAID/OIG. Deficiencies were first pointed out in a study
conducted by the Software Engineering Institute in June 1995. That study concluded that
undefined organizational roles and responsibilities, undisciplined management processes,
and a poorly defined decision-making and commitment process created significant
project risks. A February 1998 report by a USAID contractor hired to independently
analyze NMS problems concluded that the lack of a development organization with
clearly defined roles, responsibilities, and authorities had fragmented efforts and eroded
accountability for results.

USAID officials believe that current organizational structure is adequate to ensure
effective implementation of an integrated system. They pointed out that, at the time the
FSI office was established, only the project to replace the core accounting system had
been approved, and that other mixed system modernization efforts, such as the
procurement and human resources projects, were only being contemplated. Further, they
stated that the other projects were being coordinated with the FSI office to ensure that
interfaces between financial and mixed financial systems are developed.

Although we agree that the other projects were in the planning stage when the FSI was
formed, we believe it is important that the FSI office provide oversight during the
planning phases of all financial management system projects. One of the key reasons for
a strong program office is to ensure that related systems are adequately planned. The
continuing fragmented organization structure may also have prevented USAID
management from correcting the remaining deficiencies cited in this report. The fact that
USAID has not developed an adequate investment portfolio and an adequate remediation
plan occurred because USAID has not completed the required planning activities for
system components other than the core accounting system. We believe these deficiencies
are due, at least in part, to the fact that the FSI office is not responsible and accountable
for these related systems.

USAID officials also stated that the Change Management Team provides the
coordination and oversight contemplated by a strong program office. They pointed out
that the AA/M utilized a Change Management Team as the executive-level oversight
body for financial management systems modernization efforts. According to the FSI
Project Management Plan, the Change Management Team provides overall direction of
the IFMS Program and plays an important oversight role in ensuring that the priorities of
the system modernization efforts remain focused on meeting USAID requirements and
achieving substantial compliance with FFMIA. The Change Management Team, which
includes the AA/M, the CFO, and the CIO, is also responsible for evaluating and



                                             18
approving modernization plan priorities that are scheduled for investment analysis and
submission to the CIRB.

Although we believe that the Change Management Team provides an important oversight
function, the team may not be in a position to perform the role of a strong program
management office. The Change Management Team strengthens executive-level
oversight of USAID’s modernization efforts, but it is not clear whether the team has the
resources, time, or management structure to provide the day-to-day direction expected of
a program office. The General Services Administration has stated that an effective
program office is essential to successfully modernize complex systems. Best practices
call for the program office to be headed by a program manager who is responsible for
ensuring that the organization's long- and short-term needs are met by its planned
acquisitions. The program manager should be responsible for ensuring that acquisitions
are adequately planned and implemented, preparing program-related portions of
solicitation documents, monitoring contractor performance, and establishing program
performance goals.

Overall, we are encouraged that USAID has taken action to establish a strong program
management office to implement an integrated financial management system. However,
the effectiveness of this office is being compromised because it has not been given the
authority to manage projects other than the core accounting system.

       Recommendation No. 3: We recommend that the Chief Information Officer
       and the Chief Financial Officer work with the Assistant Administrator for
       Management to ensure that the Change Management Team and the Office of
       Financial Systems Integration collectively have the responsibilities, the
       authority, and structure to direct the planning, design, development, and
       deployment of all financial and mixed financial system components of the
       Integrated Financial Management System Program.


Management Comments and Our Evaluation

In response to our draft report, management comments stated that USAID generally
accepts the findings and recommendations regarding prioritizing financial management
system investments and the financial management system remediation plan
(Recommendation Nos. 1 and 2), but not Recommendation No. 3 regarding the
authorities of the Office of Financial Systems Integration, as currently written.
Management’s comments are reproduced in Appendix II.

After reviewing the management comments, we revised Recommendation No. 3 to
recognize that USAID management plans to use the Change Management Team and the
Financial Systems Integration Office to perform responsibilities that are functions of the
Program Management Office.




                                            19
USAID/OIG looks forward to continuing the dialogue with USAID management to
further clarify the authority and responsibilities, and reviewing clarified roles and
responsibilities, within the Financial Systems Integration Office.

Based on USAID’s management comments, management decisions have been reached on
Recommendation Nos. 1 and 2. Recommendation No. 3 will require further discussions
with USAID management before agreement is reached on a management decision.
Evidence of final actions on recommendations should be provided to USAID’s Office of
Management Planning and Innovation for consideration in closing recommendations.




                                            20
                                                                        APPENDIX I
                                                                       Page 1 of 2




                               SCOPE AND
                              METHODOLOGY



Scope

Our audit of the actions USAID has taken to correct the five financial management
system planning deficiencies identified in the Audit of USAID’s Progress Implementing
a Financial Management System That Meets Federal Financial Management
Improvement Act Requirements (Audit Report No. A-000-99-003-P dated March 1,
1999) included examining the actions that USAID had taken as of June 7, 2000.

Our audit included a review of the CFO’s Financial Management Five-Year Plan: Fiscal
Years 1999–2003 and Financial Management System’s Modernization Plan and exhibits
from USAID’s fiscal year 2001 budget submission to the OMB. It also included a review
of USAID’s Information Architecture, capital investment planning process, and other
planning documents.

Our audit was conducted from November 1, 1999 to June 7, 2000 in accordance with
generally accepted government auditing standards. Audit fieldwork was primarily
conducted in the Office of Financial Management at USAID/Washington.

During our review, there was a scope impairment. Regarding the target dates, we were
unable to assess the reliability and reasonableness of target dates that had been
established because USAID management determined that the review of the remediation
plan would proceed without OIG participation. Instead, OIG would be provided the work
products from the review. The review entailed an analysis of a detailed schedule that
outlined how USAID planned to install a core accounting system in Washington and at
two overseas offices by March 31, 2001. However, the review was delayed. The delay,
combined with USAID’s decision to exclude the OIG from the ongoing analysis,
prevented us from doing the tests necessary to render a professional opinion on the
reliability and reasonableness of USAID’s schedule of milestones.
                                                                        APPENDIX I
                                                                        Page 2 of 2


Methodology

To identify actions USAID has taken to correct the previously reported financial
management system planning deficiencies, we reviewed USAID's CFO’s Financial
Management Five-Year Plan: Fiscal Years 1999–2003, USAID’s Modernization Plan for
Integrated Financial Management Systems, and exhibits from USAID’s fiscal year 2001
budget submission to the OMB. Together, these documents described USAID's financial
management system remediation plan. Although we focused on analyzing USAID's
remediation plan, we also reviewed other planning documents, including estimated
resource requirements and milestones, which described USAID's plans and activities to
implement an effective financial management system.

In addition, we reviewed minutes from USAID’s CIRB, USAID’s Information Target
Architecture Board, and Managerial Cost Accounting project documents. We also
interviewed responsible USAID and contractor officials from the Office of Financial
Management and the Office of Information Resources Management.
APPENDIX II
Page 1 of 3
APPENDIX II
Page 2 of 3
APPENDIX II
Page 3 of 3
